<html>
<title> - CONFRONTING DAMASCUS: U.S. POLICY TOWARD THE EVOLVING SITUATION IN SYRIA, PART II</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]








  CONFRONTING DAMASCUS: U.S. POLICY TOWARD THE EVOLVING SITUATION IN 
                             SYRIA, PART II

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2012

                               __________

                           Serial No. 112-146

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-999 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania
ROBERT TURNER, New York














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Andrew Tabler, Next Generation Fellow, Washington Institute 
  for Near East Policy...........................................     5
Ms. Mara E. Karlin, instructor in strategic studies, School of 
  Advanced International Studies, Johns Hopkins University.......    12
Marc Lynch, Ph.D., professor of political science, director of 
  Institute for Middle East Studies, Elliott School of 
  International Affairs, George Washington University............    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Andrew Tabler: Prepared statement............................     8
Ms. Mara E. Karlin: Prepared statement...........................    14
Marc Lynch, Ph.D.: Prepared statement............................    19

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43

 
  CONFRONTING DAMASCUS: U.S. POLICY TOWARD THE EVOLVING SITUATION IN 
                             SYRIA, PART II

                              ----------                              


                       WEDNESDAY, APRIL 25, 2012

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:30 p.m., in 
room 2360 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The committee will come to order. Good 
afternoon, everybody. Sorry for the change in location. 
Normally we are on 2172, but we had a bunch of hearings 
happening at the same time so we are here in the Small Business 
Committee room this afternoon. So sorry for any inconvenience 
to anyone.
    I want to welcome all my colleagues to the hearing of the 
Subcommittee on the Middle East and South Asia. As has been 
well documented, the human rights abuses being perpetrated by 
the regime in Damascus are simply horrifying. Recent reports 
suggest that nearly 10,000 Syrian civilians have now died. 
Approximately 75,000 have fled the country and over 200,000 are 
internally displaced within Syria itself.
    This is now the fourth hearing that this subcommittee has 
held on Syrian human rights violations, and I am deeply 
saddened that each time these numbers continue to grow by leaps 
and bounds. What is more, the situation shows no sign of 
improving any time soon. The English language does not have 
words strong enough to adequately condemn the horrifying abuses 
that have been committed by the Assad regime and its allies 
against the Syrian people.
    Beyond questions of legitimacy, these despicable acts are 
proof that the Assad regime is morally depraved, and it is my 
belief that we and all other responsible nations have a moral 
imperative to ensure that Bashar al-Assad is removed from power 
as soon as possible.
    Today's hearing is being called to examine U.S. policy 
options to address the continuing crisis. This subcommittee has 
had the privilege of hearing testimony from Assistant 
Secretaries Feldman and Posner as well as Frederic Hof, Special 
Coordinator for Regional Affairs and one of the 
administration's point people on Syria.
    Although the administration has taken a number of steps on 
Syria for which it deserves credit, I am deeply concerned that 
none of these will actually lead to a resolution of the current 
crisis. While the sanctions that have been implemented by the 
U.S. and its allies around the world are certainly having an 
effect, I fear they will not achieve the stated goal to 
actually bring about the removal of Assad from power.
    Some today are looking to Kofi Annan's six-point plan for 
Syria, the Assad regime's recent acceptance of a ceasefire 
agreement and the passage of U.N. Security Council Resolutions 
2042 and 2043 establishing an observer mission with optimism. I 
am afraid that I do not share that optimism. Although diplomacy 
must always be given an opportunity to succeed, I do not see 
one iota of evidence to suggest that the Assad regime is 
sincere in any of its international commitments.
    Recent reports reference satellite imagery which indicates 
that the regime has not yet removed all heavy weaponry from 
population centers in violation of the ceasefire agreement. If 
it continues, as it has for years, to shirk its international 
commitments regarding its nuclear program, why should we expect 
it to honor this agreement now? And if years of sanctions and 
international isolation have not yet altered the Assad regime's 
calculations, upon what are we basing the hope that they will 
now when the regime views itself as in a struggle for its very 
existence? Hope may be an effective campaign catchphrase, but 
it is not an effective policy. Indeed, we had all hoped for a 
clear path forward, that there might be some way through a 
combination of pressure or enticements to convince Assad to 
leave power. Those days are long gone.
    I fear that those who are advocating for the Annan plan are 
doing so not because they believe it has any chance of 
succeeding, but because they do not want to make a far harder, 
even if necessary, decision.
    One lesson that this administration appears not to have 
learned in over 3 years is that making no decision is, in fact, 
a decision in and of itself. And the cost is real. As a former 
official recently noted, ``Suppose the administration had not 
sat on its thumbs and had started delivering nonlethal aid 1 or 
2 or 6 months ago. By now we would, in fact, know a great deal 
more about the opposition, who is real and who has no military 
capacity, who can get things into Syria and who can't, who is 
corrupt and who is effective. That we know so little about the 
opposition is not so much an intelligence failure as a 
deliberate policy.''
    Our chief priority must be to get Assad out of power as 
soon as possible. The longer Assad is allowed to stay in power, 
the greater the number of innocents killed will be and the 
higher the likelihood of the conflict evolving into a full-
scale civil war will be. Furthermore, Assad's removal would 
deal an important blow to the regime and Tehran and the 
terrorists it funds, like Hezbollah.
    As our witnesses will outline today, what remains before us 
are a series of options that range, unfortunately, from bad to 
worse. As we examine these options, however, we must not allow 
ourselves to be deluded into thinking that Assad is something 
that he is not. That he can be coaxed out of power or that he 
can lead any kind of transition or reform process. He is beyond 
salvation.
    I would now yield to the distinguished ranking member of 
the subcommittee, Mr. Ackerman from New York, for 5 minutes.
    Mr. Ackerman. I thank the very distinguished chairman. 
Atrocities can provoke two kinds of errors from those who 
witness them. The first is moral collapse, to look away and to 
refuse to see what is before one's eyes. Whether by impassivity 
or apathy or rationalization, the nonresponse to horror fails 
the test of moral responsibility. Each of us, I suspect, has at 
some point walked away from someone or something which made a 
claim on our heart. Likewise, we as a government, and we as a 
nation, have sometimes failed to live up to our own highest 
aspirations.
    The second kind of failure is a form of reflex, a heedless 
leap into the fire of need. Such acts of selflessness by 
individuals are often properly understood as heroic, but in the 
life of nations they may be extremely unwise. Promising to pay 
any price and bear any burden sounds good on the East Lawn of 
the Capitol. I suspect those words sound less appealing while 
trying to survive a night on patrol in a Vietnamese jungle or 
an Iraqi slum. A man who jumps into the freezing waters to save 
another may succeed, but as every Boy Scout knows, it would be 
better to search for a pole or a rope and to pull from solid 
ground. And indeed, once the leap is made the would-be savior 
may quickly become a victim as well, doubling the stakes of the 
crisis.
    When this subcommittee met last year to consider the 
implications of the Syrian revolution, my fear was that we had 
fallen into the trap of indifference and were seemingly 
heedless of both the need of the people of Syria as well as the 
profound strategic implications in the potential collapse of 
the Assad dictatorship.
    While innocent protestors' blood was running in Syria's 
streets, State Department spokesmen were still rigidly calling 
for a ``restraint on all sides.'' A smarmy, condescending 
phrase that really ought to be expunged from our Government's 
lexicon, and it made the Obama administration seem to be 
paralyzed. Behind the scenes, however, and to their credit, the 
Obama administration was working hard on developing the 
foundations for the broad, international consensus which exists 
today and has imposed unprecedented political, diplomatic and 
economic sanctions on the Assad regime, that has opened 
contacts with the would-be successors to the existing Syrian 
Government and that is continuing to support the demand of the 
Syrian people to be free of Assad's tyranny.
    Today, I fear the pendulum is swinging toward the second 
and more potentially dangerous error of precipitous action. I 
want to be very clear. Profound moral outrage at what the Assad 
regime has done is not an impediment or a failing. It is a bare 
requirement for standing in the human race. But the loathing, 
contempt and anger provoked by Assad's atrocities are poor 
counselors and doubtful policymakers.
    As human beings we must be informed by what we have seen. 
We cannot pretend to see these events as trivial or somehow 
normal. The butchery of thousands of men and women, the torture 
of children, the shelling of civilians in order to sow terror 
are crimes against humanity and we must not shy away from 
declaring these acts and insisting on their recognition. We 
serve no purpose but our own disgrace by hiding, obscuring or 
downplaying these facts, but our goal must be more than the 
satisfaction of our appetite for justice.
    As a nation and as a leader in the international community, 
we continue to have powerful interest in seeing the ultimate 
destruction of the Assad regime. But that doesn't mean that we 
want to see Syria in anarchy without any government. We want 
Assad's forces to stop the killing. We want Assad gone. But 
that doesn't mean sundry airstrikes or the mere declaration of 
safe zones will succeed in achieving these ends. We want the 
Syrian opposition to cohere, to stake out strong, determined 
positions regarding a liberal, Democratic, pluralistic Syria to 
come. But it doesn't necessarily follow that releasing a flood 
of arms will facilitate that objective. We need to engage both 
our heads and our hearts.
    Yes, Assad must go and we need, from both a moral and a 
national interest position, to facilitate that effort. But 
determining how to do that is considerably more complex than 
simply declaring it to be good to do so. It is all well and 
good for politicians and pundits to make robust speeches. For 
some, exhortations meet the definition of duty. Nevertheless, 
words, however righteous and mightily declared, do not feed 
refugees. They do not send soldiers back to their barracks. 
They do not collapse corrupt, bloody, failed regimes.
    Diplomacy that makes space for the Syrian people's 
continued popular protests, international cooperation that 
facilitates the movement of relief supplies, economic sanctions 
that pressure and squeeze don't inspire us. No statues will be 
built and no parades will be marched to honor the slow and 
hopefully steady constriction of a still tightening political-
economic noose around Assad and his thugs.
    Our goal of course is not wish fulfillment or glory. We are 
engaged in this work because it is our essential moral 
obligation and because it serves key national security goals. 
And that is why despite the starts and stops, despite the 
agonizing slow pace, despite the endless frustration of 
coalition building and the diplomatic engagement with 
adversaries, we must keep at this work until it is done. Assad 
must go, and for that the noose must tighten. And with the 
means we have we must speed the work.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much, Mr. Ackerman. We 
appreciate your statement. And we certainly appreciate the 
distinguished panel that we have before us this afternoon, and 
I will introduce them at this time, before they will have 5 
minutes to testify, each.
    We first have Andrew Tabler who is a Next Generation Fellow 
in the Program on Arab Politics at the Washington Institute 
where he focuses on Syria and U.S. policy in the Levant. Tabler 
served most recently as a consultant on U.S-Syria relations for 
the International Crisis Group, and is a Fellow of the 
Institute of Current World, writing on Syrian, Lebanese and 
Middle Eastern affairs. Mr. Tabler received his B.A. from 
William and Jefferson College, and his M.A. from the American 
University in Cairo. We welcome you here this afternoon.
    And next we will have a speaker, Mara E. Karlin who is a 
lecturer and Ph.D. Candidate in Strategic Studies at Johns 
Hopkins University's School of Advanced International Studies. 
Previously she served in a variety of policy positions in the 
U.S. Defense Department including Levant director and special 
assistant to the Undersecretary of Defense for Policy. In 
connection with her work at the Pentagon, she received the 
Secretary of Defense Meritorious Civilian Service Award. She is 
a consultant to the office of the Secretary of Defense for 
Policy, and an adjunct scholar at the RAND Corporation.
    And our third and final witness will be Marc Lynch who is 
an associate professor of Political Science and International 
Affairs at the George Washington University, where he also 
directs the Institute for Middle East Studies. He is also a 
nonresident senior fellow at the Center for a New American 
Security, and director on the Project on Middle East Political 
Science. He is also the editor of the Columbia University Press 
book series, Columbia Studies in Middle East Politics. He 
received his Ph.D. in Government from Cornell University.
    And we welcome all three of you here this afternoon, and as 
you know our rules allow 5 minutes from each, and we have a 
lighting system on your desk. The yellow light will warn you 
that you have 1 minute to wrap up, and the red light means that 
we would appreciate it if you would complete your testimony at 
that time or shortly thereafter.
    So we will begin with you, Mr. Tabler. You are recognized 
for 5 minutes.

    STATEMENT OF MR. ANDREW TABLER, NEXT GENERATION FELLOW, 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Tabler. Thank you, Mr. Chairman and Ranking Member 
Ackerman, and thank you for this opportunity to testify before 
the subcommittee today on the situation in Syria, and U.S. 
Government efforts to force Bashar al-Assad to step aside, as 
outlined by President Obama in August 2011.
    During Part I of this hearing in December of last year, a 
representative of the Obama administration characterized Assad 
as a ``dead man walking.'' I agreed with that assessment at the 
time and I think much of it still holds true. International 
pressure and sanctions placed upon the Assad regime are having 
an unprecedented effect on its ability to fund its operations, 
and evidence shows that hard currency reserves are being 
rapidly depleted. Unfortunately, however, repeated vetoes by 
Russia and China at the United Nations Security Council, the 
overall lack of defections from the core of the Assad regime, 
and the findings of a recent visit I made to southern Turkey 
and Lebanon have all helped me understand that Assad still has 
many more political and military resources that he can call 
upon to continue what is literally now a death march for months 
if not years to come. To force Assad to step aside, the United 
States will need to accelerate efforts from the ground up by 
supporting the opposition ``within Syria'' in concert with 
allies forming the core of the Friends of the Syrian People 
group of countries.
    The Assad regime's continued suppression of the Syrian 
opposition continues, and has claimed upwards of 10,000 lives 
thus far. Thousands more have been arrested or displaced 
including those that have fled to Turkey, Lebanon and Jordan. 
Recently the United Nations Security Council passed a 
resolution backing a six-point plan developed by special envoy 
Kofi Annan intended to bring about a cessation of hostilities 
and a process to facilitate a ``Syrian-led political transition 
to a democratic, plural political system.'' Despite agreeing to 
this plan, the Assad regime has failed to meet agreed deadlines 
to cease use of live fire and heavy weapons as well as its 
commitments to withdraw its forces from population centers.
    The United Nations has also approved a plan to place 300 
monitors in Syria for up to 3 months to observe implementation 
of the plan. Given the regime's failure to observe the 
agreement thus far, it is unclear if the monitors will be able 
to do their jobs. What the regime's failure to implement the 
agreement thus far shows, however, is that what has become 
known as the Annan plan may be able to deal with some of the 
symptoms of the crisis in Syria, including introduction of 
monitors and delivery of humanitarian assistance, but has 
little hope of dealing with the disease itself, a minority-
dominated regime with a 42-year track record of being unable to 
reform, now brutally suppressing an opposition carved out of 
one of the youngest populations in the Middle East outside of 
the Palestinian territories.
    The regime has thus far had a harder time dealing with 
civil resistance over the past year than armed resistance. 
Assad's actions thus far indicate that he wants to use the 
Annan plan to grind down not only the armed opposition in the 
country, but the overall protest movement as a whole. Thus the 
Annan plan as currently implemented serves Assad's interests 
and directly undermines those of the United States.
    The introduction of monitors is a positive development, but 
only insofar as it will help guarantee Syrians' right to 
peacefully express themselves in favor of the Assad regime 
stepping aside. Quite simply, the regime is failing to 
implement point two of the Annan plan, halting fighting and use 
of heavy weapons and withdrawing its forces from population 
centers, because it knows well it cannot implement point six of 
the plan, respect freedom of association and the right to 
demonstrate peacefully as legally guaranteed.
    Assad knows well that peaceful protestors, who have 
continued their activities unabated as the international 
community has focused its attention on the armed opposition, 
will fill in the main squares and demand his departure or 
worse. To preclude this scenario he has labeled the peaceful 
protestors as terrorists and used live fire to put them down.
    The best way the United States has of ensuring that 
President Assad steps aside and expediting the more democratic 
government in Syria is to implement Plan B, a coordinated 
effort to pressure the regime from the ground up, including 
support for the opposition within Syria. This effort is already 
underway, partially, and would be implemented in addition to 
the sanctions and other diplomatic pressure. So I want to 
emphasize this would not replace what the administration has 
done up until now but would augment it.
    The United States is a member of the Friends of the Syrian 
People, a collection of 83 countries which met for the second 
time on April 1st. Its core members include Britain, France, 
Germany, Turkey and Saudi Arabia and Qatar, to forge and lead a 
coalition of countries to more directly support the opposition 
within Syria. Thus far the United States has committed to only 
giving nonlethal assistance to the opposition in that country, 
which could include communications equipment.
    Pressuring the Assad regime to end violence against the 
population and ultimately make an exit will require such U.S. 
assistance and much more. In the short term, the United States 
should share limited intelligence with the opposition inside of 
the country on the regime's movements.
    Second, the United States should intensify its examination 
of the opposition within Syria and see, quite frankly, which 
groups with whom we could work and perhaps with whom we cannot 
work, given their long-term goals in Syria.
    And third, Washington should immediately expand contingency 
planning about possible direct U.S. military support as part of 
actions to head off massacres or a humanitarian disaster. This 
includes supporting the creation, with such allies as Turkey, 
of safe havens inside of Syria. In addition, the United States 
should consider what kind of military force may be required, 
and under what circumstances, to assist the opposition in 
deposing the Assad regime.
    Thank you very much.
    [The prepared statement of Mr. Tabler follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much. We appreciate your 
testimony.
    Ms. Karlin, you are recognized for 5 minutes.

   STATEMENT OF MS. MARA E. KARLIN, INSTRUCTOR IN STRATEGIC 
   STUDIES, SCHOOL OF ADVANCED INTERNATIONAL STUDIES, JOHNS 
                       HOPKINS UNIVERSITY

    Ms. Karlin. Good afternoon, Mr. Chairman and Ranking Member 
Ackerman. Thank you for holding this important hearing on U.S. 
policy toward Syria and for inviting me to participate.
    Let me state my bottom line up front. The United States 
knows what it does not want in Syria. But getting to what it 
does want, the end of the Assad regime, will be messy, 
difficult and unsatisfying. With that in mind and given the 
varied constraints on the United States, we can best support 
transition in Syria by playing a signaling role. There is no 
debate about the repugnant and despicable acts of the Assad 
regime in Syria. The longer this conflict lasts, the more 
bloody, internecine and tragic it will be.
    To expand on my bottom line, I would like to offer three 
critical observations. First, let us step back and dissect what 
the United States does not want in Syria. We do not want Assad 
to stay in power. He has proven to be venal and vicious, a 
murderous thug. We do not want a power vacuum that facilitates 
continued civil war or begs for a robust long-term U.S. nation-
building effort, or enables Syrian territory to be manipulated 
and disrupted by rogue nonstate and external actors. And we do 
not want continued violence. Violence that has already resulted 
in ten times more deaths than when the international community 
first intervened in Libya last year.
    Second, nearly one decade ago, General David Petraeus, 
looking at the impending chaos in Iraq, posed a crucial 
question, ``Tell me how this ends.'' The outcome in Syria is 
not evident today, but I can say with some confidence how it 
will not end. It will not end with Bashar al-Assad voluntarily 
stepping aside or choosing exile. It will not end with him 
making sufficient reforms to enable a transparent and free 
Syria. This regime will not permit actions that serve to 
undermine and ultimately overthrow its rule. Those who 
predicted Assad's speedy collapse or asserted his willingness 
to inaugurate a new Syria have been proven spectacularly wrong, 
for Syria today remains immersed in violence and Assad remains 
entrenched. And how and when Assad departs, will invariably 
affect the contours and dynamics of the new Syria.
    Both of these points illustrate how messy, difficult and 
unsatisfying our options are. We would be wise to recall them 
as we consider what the United States should be doing to 
effectively support transition there, which brings me to my 
third and final point.
    Our operating maxim should be the following. Facilitate the 
end of the Assad regime while coalescing alternative, viable 
and inclusive leadership. Both objectives must be actively 
pursued. To date, efforts to isolate, sanction and advertise 
the regime's bad behavior have degraded its capabilities, and 
efforts to support the opposition have helped it delineate a 
vision of a new Syria. They should be redoubled, emphasizing to 
key supporters of the Assad regime both inside and outside of 
Syria that a transition will occur, and their interests are 
best served if this happens soon.
    But above all, the United States can play a signaling role. 
It can leverage its comparative advantage as the critical actor 
to whom other states have looked to for guidance as they 
respond to the Assad regime's atrocities. Over the last year 
when the United States has signaled both publicly and privately 
that it supports vigorous efforts to undermine and counter the 
regime, it has had an impact.
    Washington's active participation in the Friends of Syria 
committee is an important step, as is its increasing support to 
the Free Syrian Army. In that vein, the United States has 
signaled what it will provide, such as communications, 
intelligence and nonlethal assistance. Providing such 
capabilities signals U.S. willingness to support an alternative 
to the regime but with limited cost and commitment.
    The United States has also signaled what it will not 
obstruct, such as other states paying salaries and providing 
equipment. However, for the FSA to seriously counter the Syrian 
regime and its military, it needs to be transformed into a 
coherent and effective fighting force. Solely focusing on 
equipment assistance will ultimately have a limited impact. 
Meaningful support will require substantial training, advice, 
potential reorganization and shifts in personnel, and an 
overall refinement of its capabilities. To be sure, a 
strengthened opposition is significant, but it is unlikely to 
tip the balance in the near term.
    Signaling shows that the United States will not stop other 
states from taking more serious steps to counter the regime. 
For those regional players that seek to more actively and 
militarily confront the Assad regime, the United States should 
not prevent them from doing so, and should consider how it 
might play a limited complementary role. As Syria's neighbors 
are flooded by refugees and increasingly destabilized by the 
upheaval next door, the signal that Washington sends will be of 
even greater consequence.
    In conclusion, the Middle East is mired in uncertainty and 
fraught with upheaval. For the United States, this arena is 
more difficult and complex to navigate today than ever before. 
Yet our interests are largely the same as they were before the 
revolutions. We must be cautious in our decision making, to be 
sure, but also cognizant of our priorities.
    I thank you again for the opportunity to appear before you 
today, and I am ready to answer any questions you may have.
    [The prepared statement of Ms. Karlin follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much for your testimony.
    And finally, Dr. Lynch, you are recognized for 5 minutes.

STATEMENT OF MARC LYNCH, PH.D., PROFESSOR OF POLITICAL SCIENCE, 
 DIRECTOR OF INSTITUTE FOR MIDDLE EAST STUDIES, ELLIOTT SCHOOL 
     OF INTERNATIONAL AFFAIRS, GEORGE WASHINGTON UNIVERSITY

    Mr. Lynch. I thank you Chairman Chabot and Ranking Member 
Ackerman, and thank you to my two colleagues for their very 
thoughtful presentations, much of which I agree with.
    I would begin with the fact that less than 2 weeks ago a 
ceasefire came into effect in Syria, which many people did not 
believe was possible. Four days ago, an unanimous United 
Nations Security Council resolution was adopted, authorizing a 
300-member team to monitor the ceasefire, something else which 
many people believed to be impossible.
    These accomplishments are not ones to be easily or lightly 
set aside. The urgent and admirable imperative to do something 
to help the people of Syria and to attempt to bring about the 
downfall of the Bashar al-Assad regime should not mean that the 
United States rushes into a poorly conceived military 
intervention. This painstakingly constructed international 
consensus and a plan which was always designed to take time to 
manifest should not be abandoned before it has even had the 
chance to succeed. There are no easy answers to the Syria 
problem. It is one of the most difficult that I have dealt with 
in all of my years working on the Middle East.
    But I respectfully disagree that the Annan plan either 
helps us out or hurts the United States. It remains the best 
option that we have available to us to create the political 
space which would make it possible for the Syrian people to 
bring about a change from within, without embroiling the United 
States in a protracted, messy and difficult ongoing insurgency. 
There are no cheap or easy forms of military intervention which 
would quickly bring down the regime of Bashar al-Assad or 
effectively protect Syrian civilians. There are many measures 
which we could take, which would likely increase the odds of 
Assad's survival while increase the deaths of Syrian civilians, 
and it is incumbent upon us to avoid making such foolish 
decisions.
    We also must be highly cognizant of the risks of limited 
half measures which leave us unable to succeed, but find us 
embroiled in subsequent steps which could end up placing us in 
a situation comparable to that of Iraq, where we find ourselves 
forced to patrol and take responsibility for a shattered polity 
where we are not wanted.
    Rejecting military action does not mean doing nothing. This 
is a false choice. The United States has effectively taken the 
lead in constructing this international consensus, which did 
not appear by magic. The six-point plan presented by U.N. 
Special Envoy Kofi Annan offers a plausible, obviously far from 
certain, path toward the demilitarization of the conflict and a 
subsequent political transition. The ceasefire obviously has 
not ended the killing, but it has substantially reduced the 
violence. Since that ceasefire began there has been a dramatic 
increase in peaceful protest across the country, and this holds 
out the hope and demonstrates that the will of the Syrian 
people has not been broken. We must continue to place pressure 
on the Syrian regime, increasing economic sanctions, its 
diplomatic isolation, and preparing for future international 
justice and accountability, but we should not rush into a 
military intervention which might be satisfying in the short 
term but leave us with something far worse than we currently 
have.
    In my prepared statement, I discuss in some detail the 
shortcomings of a number of available military options 
including safe zones, humanitarian corridors, arming the 
opposition and more. I won't take time to talk about those 
here, though I am happy to discuss them in the questions.
    The fundamental point that I would like to make in the time 
remaining to me is that while the current diplomatic strategy 
is clearly frustrating, difficult and faces long odds, it is 
not something which is designed simply to buy time and to not 
act. There is a logic behind Annan's plan. And that logic is 
that it is the militarization of the conflict which serves the 
survival of Bashar al-Assad's regime. The opposition is 
incapable of winning by force, and it is very unlikely that 
anything that we do will change that. At the same time, the 
center of Syrian politics and the very real constituencies 
which continue to support Bashar al-Assad are bound to him by 
fear of the future. Minority communities fear that they will 
face retribution. That they will revenge killings. That they 
will be butchered in the aftermath of the fall of Bashar al-
Assad.
    The demilitarization and the ceasefire which Kofi Annan is 
pursuing are precisely designed to reduce those fears and to 
carve out the political space necessary to begin a genuine 
political transition. Nobody, not me and I believe not Kofi 
Annan, believes that Bashar al-Assad will agree to voluntarily 
end his regime. He has never demonstrated any willingness or 
ability to do so. But that is neither necessary for the plan or 
its objective. Instead, the objective is to create the space 
for Syrians to find a way to remove Assad by calculating that 
their interests are best served to rescue their country by 
removing Assad themselves. And our job must be to create the 
international space to make that possible.
    Thank you, sir.
    [The prepared statement of Mr. Lynch follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Doctor. And we will go 
ahead and ask questions. At this point I recognize myself with 
5 minutes for that purpose. And I would ask Mr. Tabler and Ms. 
Karlin, Dr. Lynch has painted a relatively bright picture on 
the Annan plan and seems to be optimistic about its 
possibilities and success. I wonder if you might feel 
otherwise, and if you wouldn't mind commenting on that. I 
appreciate it. We will start with you, Mr. Tabler.
    Mr. Tabler. Thank you, Mr. Chairman. I don't think Marc 
believes that necessarily the Annan plan is going well. What I 
said in my testimony, and where I think probably we agree, is 
that the Annan plan as implemented is the problem. This is not 
a ceasefire. Having multiple shelling incidents a day on the 
third largest city in Syria is not a ceasefire. It is not even 
fragile. It is just not a ceasefire. It is a reduction in 
hostilities, but even that went out the window a couple of days 
ago when the death toll spiked again when they began using 
shelling.
    They also have not completely withdrawn their military 
formations from cities, and this gets to what I think Marc was 
talking about a little bit later on. The key part of the Annan 
plan is that the Assad regime is vulnerable to civilian 
resistance and has been for over a year. It is the peaceful 
protestors that have kept Assad on his heels. The problem is, 
is that they are constrained by the placement of military 
forces inside the country now. They move them around, they move 
them to the outskirts of town, they put them inside of 
buildings, and unfortunately, when they move them to the 
outside of town they begin to use artillery and mortars on the 
populations inside those cities. So the Annan plan as 
implemented now, and this is the problem, it contravenes a 
pillar of U.S. policy going back over 1 year, and that is that 
Syrians should be allowed to peacefully express themselves and 
to assemble. And this was established long ago, long before the 
Annan plan was established. The fact is, is that this has not 
happened.
    And so now we are sending in monitors, again which could 
carve out that space for protestors. But my only response would 
be it gets back to my original point, he cannot implement point 
two of the plan because he cannot tolerate point six. That is, 
he can't tolerate anything that would allow Syrians to once 
again flood the main squares of cities and demand that 
President Assad go, and this is where he is particularly 
vulnerable. Thanks.
    Mr. Chabot. Thank you. Ms. Karlin?
    Ms. Karlin. Sir, I would just add, I think Andrew's point 
about implementation is particularly cogent, and there are two 
issues that illustrate this for us. First of all, as of 
yesterday there were 11 out of 300 observers in Syria. Realize 
observers should be working 24 hours a day, so that would leave 
very few working at each hour of the day even if you get to the 
large number of 300. So the numbers are extraordinarily small.
    I will add another example which I think is telling. Right 
now there is an observation force on the border between Syria 
and Israel. It has been there since the aftermath of the 1973 
war. Indeed, it has been an extraordinarily quiet border. But 
not because of the presence of that force, but because it is in 
both states' interest to have it. If it is not in the interest 
of Assad to actually implement the key aspects of the Annan 
plan, which involve his transition, then the observers really 
won't be able to do a whole lot. Thank you.
    Mr. Chabot. Thank you. Mr. Tabler, in your testimony you 
stated that, ``Washington should immediately expand contingency 
planning about possible direct U.S. military support as part of 
actions to head off massacres or humanitarian disaster. This 
includes supporting the creation with allies such as Turkey, of 
safe havens inside Syria. In addition, the United States should 
consider what kind of military force may be required and under 
what circumstances to assist the Syrian opposition in deposing 
the Assad regime.'' Ms. Karlin and Dr. Lynch also discussed 
this subject. As I am sure you know, whether and how to aid the 
Syrian armed opposition continues to be very contentious.
    What assistance if any do you believe should be provided to 
the armed opposition and under what circumstances? What do you 
believe are the risks and benefits of arming or training the 
armed opposition, and additionally, are foreign nations 
providing aid to Syrian rebels already, and if so, how should 
that factor into our decision making?
    Mr. Tabler. Thank you, Mr. Chairman. To answer your 
question, I think that the immediate first step is to expand 
the nonlethal assistance to the armed opposition within Syria. 
And what I mean by that is communications gear and other kinds 
of equipment that will allow them to better communicate with 
each other and coordinate their operations. I think that this 
is particularly the smart move in light of the Assad regime's 
failure thus far to implement the Annan plan.
    There are risks to dealing with an opposition that you 
don't know. The opposition inside of Syria is headless. It is 
not leaderless. There are many leaders. And the operations of 
the opposition within Syria are civil and armed and they vary 
by region. And there are some regions where we are more 
familiar with the groupings, particularly around Homs for the 
revolutionary councils and in Daraa. Idlib province is a bigger 
concern. There are groups there which are operating, which many 
perceive not to be in the long-term interest of the United 
States. It is also a very confusing environment.
    But what I learned from my last visit to the Turkish-Syrian 
frontier was that this assistance was already going across the 
border. I have heard that there is more assistance going across 
the border. A lot of this assistance by the way is not funneled 
via States. It is funneled via individuals. A lot of times, for 
example, weapons. The armed opposition inside of Syria 
obviously is getting weapons from somewhere. Where they are 
getting them from is, actually Syrian officers are selling them 
to Turkish intermediaries who are then selling them back to 
members of the opposition. And all this requires is wealthy 
people coming up with some cash. There is plenty of cash in the 
Middle East and it is already making its way there. So that 
trend is established.
    The question going forward is, given that there isn't a 
resolution to this--and I think Mara is right, I just don't see 
how this settles down anytime soon. Are we going to allow other 
countries in the region who don't share our long-term interests 
inside of Syria be able to affect the outcome with the 
opposition? Or should the United States get more directly 
involved? And I think the only way to answer that is to take a 
much closer look at the groups that are on the ground and 
determine who you can work with and who you can't. And I think 
to your original point, we should have done this much earlier 
and we didn't. We worked it from the top down when we should 
have also, not instead of but also, been working it from the 
bottom up.
    Mr. Chabot. Okay. Thank you very much. My time is expired. 
The gentleman from New York is recognized for 5 minutes.
    Mr. Ackerman. I found it interesting that the chairman 
invited you to fight among yourselves and nobody really rose to 
the bait, which leads me to suspect that you are a lot closer 
to agreeing that there is no clear solution to this problem, or 
am I wrong in that?
    Ms. Karlin. Sir, I think you are probably right in that. 
Having spent a lot of time wrestling with these issues, I think 
the three of us are cognizant of how difficult and, as I noted, 
how unsatisfying the options are. That doesn't mean we 
shouldn't choose one of those options, I think, as Mr. Chairman 
mentioned. But I think we deeply appreciate we are now in the 
13th month of this conflict. Ten thousand people have been 
killed. It is hard not to be rather sober about it.
    Mr. Lynch. I would agree with that. Mr. Tabler, Ms. Karlin 
and I, we see the same Syria and we see the same facts. I would 
say that there are two, only two clear areas where I think that 
we seriously disagree. I think the first is on the potential 
for the ceasefire and the Annan plan to actually have a 
positive effect on events inside of Syria. And here, and 
actually even here I agree with much of what was said. For 
example, I think that the observer mission must be rushed in 
much more quickly. The French Foreign Minister just proposed 
that all 300 should be on the ground within 15 days. That is 
something the United States should support strongly. This 
should not be slow rolled. But if you look at what has happened 
in the areas where observers are currently located, violence 
stops, and then they leave and violence starts again. And that 
is the point of having an expanded mission on the ground in 
order to make sure that they don't have to leave and that you 
can actually create that political space. So for the Annan plan 
I think we disagree on the potential utility of that.
    And the second, I think, very serious area of disagreement 
is on the question of arming the free Syrian Army and the 
Syrian opposition, which quite frankly, I think, would actually 
lead to the worst possible outcome in that it would stand up--
--
    Mr. Ackerman. You are for don't arm them.
    Mr. Lynch. I am very much for don't arm. And the reason for 
that is that by doing so what you do is you create a balance of 
power on the ground in which the opposition is not going to be 
able to win, but you will succeed in generating enough violence 
to scare the other Syrians back into the arms of the regime and 
you end up with a protracted insurgency. I look back in history 
and I try and see examples of this strategy working. The only 
one I can find is Afghanistan, mujahideen in Afghanistan. And 
how did that end up? The Afghans stayed collapsed. The Taliban 
took power and al-Qaeda was created. I can't think of another 
example in modern history in which a strategy of arming the 
opposition, picking and choosing who you can work with and 
trying to bring down an entrenched----
    Mr. Ackerman. Thank you. Mr. Tabler, do we arm the 
opposition?
    Mr. Tabler. I think that we need to identify groups with 
whom we could work and potentially arm some of those groups.
    Mr. Ackerman. If we arm those groups what does that do? 
Does that bring Assad down or does that guarantee that the U.N. 
peace-observing mission has nothing to observe because there is 
no peace?
    Mr. Tabler. Well, they are observing the implementation of 
the six-point plan. They are not observing peace or even are 
supposed to keep the peace, so they can observe the agreement 
all they want and make their own decisions.
    Mr. Ackerman. Well, I don't know. It seems sometimes that 
policymakers are more interested in checking the boxes. We have 
a six-point plan, one, two, three, four, five, six. We don't 
care what the hell happens as long as that did whatever the 
plan said.
    But if the ultimate goal here is to get rid of the Assad 
regime, do you do that with arming the people? And if you arm 
the people, it would seem to me that what Dr. Lynch said, you 
are going to give the observers a lot more to observe. Because 
if you arm one side more than they are armed, they are going to 
use those arms because that is what they have the arms for.
    Mr. Tabler. Right. We have the ability to arm the 
opposition in greater numbers, but----
    Mr. Ackerman. Is it wise to do that is the question, and 
what does that yield?
    Mr. Tabler. They are going to get the weapons whether we 
give them to them or not, and this is the problem. I mean there 
is----
    Mr. Ackerman. We don't have to, we can move on to the next 
country and call the next panel. Are you saying we shouldn't do 
anything because they are going to do it anyway, so we are 
wasting a lot of time, resources----
    Mr. Tabler. I am saying to blanketly not support the armed 
opposition inside of Syria would not be, I think that it is 
necessary to do so in order to pressure the Assad regime. That 
does not mean that we throw away the rest of our policy.
    Mr. Ackerman. My concern is, when there is not a clear, 
everybody can agree to want to go forward plan to a horrible 
situation that is festering somewhere, that what we do on this 
side of the table is we break down onto our own sides, and it 
becomes an exercise in let us blame the administration or let 
us defend the administration. And our real concern has to be, 
on both sides of our tables here, is to figure out what we do 
as a humane people that is in our national interest to resolve 
this situation the best and fastest way we can with the least 
damage to human beings and to the greatest advantage to our 
American national interest. And we don't seem to have a clear 
path by which to accomplish that. Is that a fair assessment? 
Forget about us bickering on this.
    Ms. Karlin. Frankly, I don't know that there is a clear and 
satisfying path. I will say this. To take off of Marc's points, 
if we look at some historical examples, there was really 1\1/2\ 
years of turmoil and tumult including the positioning of 
observers in the Balkans until Srebrenica happened, and that 
was the spectacular attack that fomented the international 
communities' involvement.
    And I would also respectfully counter one of th points that 
Marc had made regarding other scenarios where we have seen 
arming an opposition, pushing out a government or rendering 
impotent. I think if we look at Lebanon in the early 1980s, 
Iran's efforts to support the formation and strengthening of--
--
    Mr. Ackerman. I don't know that that is a wise thing to do 
to go back in history and find out who beat who and how they 
did it, because someone will then come up with an observation 
that this is a different country and it is a different century.
    Ms. Karlin. Indeed, sir, indeed.
    Mr. Ackerman. So while it might be historically 
interesting, we are not going to make any policy decisions 
based on the Philistines beat the Hebrews or something 
somewhere back in the----
    Mr. Chabot. The gentleman's time has expired but if 
somebody wanted to complete that thought that would be good.
    Mr. Ackerman. That would not be me.
    Mr. Chabot. Dr. Lynch, did you want----
    Mr. Lynch. Sir, if I may. I think that what unites the 
three of us at the table is, and I think what actually meets 
your mandate of us not simply bickering is that none of the 
three of us is urging doing nothing. All of us would like to 
orient our policy to see that Bashar al-Assad's regime ends and 
the Syrian civilian population is protected. Our disagreement, 
I think, is fundamentally about what is the best way to do 
that. And I think that makes for a better and more constructive 
kind of policy debate, and one which hopefully can go forward.
    Mr. Chabot. Okay, thank you very much. The gentleman's time 
has expired. The gentleman from Nebraska, Mr Fortenberry, is 
recognized for 5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman. Thank you to the 
witnesses for coming today. I am sorry I don't have the benefit 
of your earlier testimonies since I arrived late, and if any of 
this is redundant, please forgive me.
    But I think the central question here is, what does a post-
Assad regime governance structure look like? What is the 
probability of that actually happening? And then the third 
question is related to an interesting scenario that I 
encountered on a radio call-in show recently. It was a national 
program. A gentleman came on who was American but of Syrian 
descent and who said that our policy ought to be to defend 
Assad. He was a Christian, and because Assad protects the 
Christians that should be the United States policy, which again 
begs the other question as to how he holds a coalition together 
that continues to empower him to provide some semblance of 
governance structures in the midst of this chaos.
    So everybody follow me on those three points?
    Mr. Tabler. Congressman, we don't know what a post-Assad 
Syria would like yet. I can tell you based on what the country 
is that it would be a very diverse one. A quarter of the 
population are minorities, and the Sunni community, the 75 
percent of the country are divided between tribal Sunnis, 
settled tribal people, urbane Sunnis from Aleppo and Damascus, 
and then more conservative Muslim Sunnis from the northwestern 
part of the country in Idlib province. It would look like a 
mosaic.
    Mr. Fortenberry. Then the binding element currently, force 
and fear? It has got to be a bit beyond that.
    Mr. Tabler. In the past that is certainly how the Assad 
regime has ruled over the country. I think a post-Assad Syria 
that would not be necessary. I would imagine that you would see 
a country that would have to come up with some kind of 
structure that would be able to incorporate all those different 
communities into it.
    But there is a tremendous amount of bickering inside of the 
opposition. I think there are two distinctions here. One is, 
the exiled opposition, the Syrian National Council, is 
incredibly divided and they have had a lot of problems. One of 
the reasons is because they are not facing any gunfire and they 
are not under pressure to come together. They are arguing over 
chairs. And why would they argue over chairs? Well, a lot of 
Western countries, Middle Eastern countries, and including in a 
de facto sense, the United States, only engaged this Syrian 
National Council and they ignored the rest of the opposition 
inside the country. So they have no incentive to come together 
until very recently.
    The opposition inside the country has come together in some 
areas, have coalesced more quickly in the face of live fire. 
There is nothing that focuses the mind like being shot at. And 
I think that that is a trend that we have seen in a number of 
different areas including around Homs.
    The reason why one of your perhaps constituents was 
arguing----
    Mr. Fortenberry. It wasn't my constituent by the way.
    Mr. Tabler. Oh, sorry.
    Mr. Fortenberry. And I rejected the premise. The United 
States is not going to stand by idly and watch this kind of 
brutality. It is not who we are, and the times in which that 
has happened we go back and question ourselves.
    Mr. Tabler. Right.
    Mr. Fortenberry. So I rejected his premise. But at the same 
time it points to this idea of Assad being able to hold this 
coalition together in some manner with some degree of 
authority, whether that is legitimate authority or whether it 
is through fear and force primarily.
    Mr. Tabler. The Saudis call the way that President Assad 
rules now, the killing machine. We call it Whac-A-Mole. It is 
very simple. You send military forces into areas that you don't 
control. You try to clear them but you can't hold them. And it 
drives up death tolls, it drives refugees across the border.
    Mr. Fortenberry. Well, it is unimaginable that he can 
sustain this into time----
    Mr. Tabler. The Assad regime is----
    Mr. Fortenberry [continuing]. Given the state of the world 
and the interconnectedness of the world, the resources that are 
transnational that can flow to people who want to affect 
governance outcomes.
    So back to the question. What does a post-Assad regime look 
like?
    Ms. Karlin. Thank you, sir. Let me make two points. A post-
Assad Syria is still violent. I think we can be cognizant of 
that. Because you have had an authoritarian structure really 
imposing it to rule through violence and the potential for 
violence for decades, we can expect violence to continue. Given 
its diversity there are a couple models one could look at. One 
could look at Iraq or one could look next door at Lebanon. 
Neither----
    Mr. Fortenberry. Is a Lebanese model multiple confessions, 
government of multiple confessions viable?
    Ms. Karlin. It would be difficult. I think in the near term 
it is possible. The challenge with the Lebanese model is it 
doesn't really function very well. I mean you have a government 
that entirely impedes all actions, so those are not heartening 
models. That said, compared to authoritarian regimes----
    Mr. Fortenberry. It doesn't function well, you are correct. 
But somehow it functions.
    Ms. Karlin. But somehow it does function.
    Mr. Fortenberry. In the midst of the rise of sporadic chaos 
somehow the mail gets delivered at the end of the day.
    Ms. Karlin. It does, messily, to be sure. And it is even 
difficult for the bureaucracies to move forward in any way in 
Lebanon, even something as simple as ambassadorial 
confirmations. But that said, they do exist and you don't have 
the same degree of violence, for example. And furthermore, in 
Lebanon you do have the challenge of an extraordinarily 
powerful, armed nonstate actor of Hezbollah helping govern it.
    On the question that the individual asked you, it is an 
intriguing one. Look, the straw man for why one would support 
Assad would be that he had brought stability. And that is 
really what the exchange was. He was supporting terrorist 
groups, had a covert nuclear program, undermined the Arab-
Israeli conflict, fomented instability in Lebanon and Iraq, but 
at the end of the day Syria was stable. That is really no 
longer the case, and I don't know that anyone really predicts 
that to be the case for the near to immediate term. Thank you.
    Mr. Fortenberry. Thank you.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Fortenberry. Thank you.
    Mr. Chabot. Thank you very much. We will move into a second 
round here and I will yield myself 5 minutes. As the conflict 
in Syria enters its second year, the prospect for a prolonged 
conflict, I think many of us believe, has the potential of 
intensifying. If the conflict in Syria evolves into a 
protracted battle between government forces and an array of 
various Sunni militias, some analysts fear that governance 
inside the country could erode significantly and that the 
conflict could expand to other countries in the region.
    Under what circumstances do you believe the conflict in 
Syria could or would spread to, or draw other countries of the 
region into this? And I will just go down the line beginning 
with you, Mr. Tabler.
    Mr. Tabler. It is possible that the conflict, such a 
conflict could spread, but as we found out from Iraq and also a 
number of other conflicts in the region, domino theories and 
contagions don't often hold true. I think Lebanon is 
particularly susceptible to some sort of pressures from Syria, 
given that you have many of the same communities that go over 
the border and the close history between those two countries. 
But I think what is going on, actually in Lebanon the situation 
is rather quiet. Certainly is a lot hotter up in the areas in 
the north where the refugees are coming across the border. I 
think what is going on in Syria is a uniquely Syrian one. It is 
a tempest.
    Again, the prospects for the Assad regime reforming, in my 
opinion based on my long experience there and particularly in 
the knowledge of Bashar al-Assad's regime, is close to zero. It 
is a minority-dominated regime like Saddam Hussein's. I think 
the chances of them splitting any time soon, I think it is 
going down by the day. On the other hand you have this young 
opposition carved out of what is essentially one of the 
youngest populations in the Middle East. It is headless. I 
don't see how this is politically solved. Even if President 
Assad wanted to cut a deal tomorrow with whom would he 
negotiate? And who would be able to take people off the 
streets? That is the real challenges, and I think this is one 
of the reasons why all three of us have been, and many others, 
have been scratching our heads the last few months.
    Mr. Chabot. Okay, thank you. Ms. Karlin?
    Ms. Karlin. Thank you. In terms of the spread, I think 
there is actually very real potential for it. And I look at 
Turkey as really the center of gravity here. You many have seen 
the Turkish Prime Minister's recent comments where he had 
suggested that he may ask NATO to invoke Article 5. We know the 
last time Article 5 was invoked was following the September 
11th attacks and really the only time since then. That is a 
bold statement. It shows how discomfitted he is by the actions 
of the regime in Syria and by the slews of refugees and 
potential violence further plaguing the country. So it could be 
increased to be sure. Lebanon, frankly, is used to----
    Mr. Chabot. I am sorry. Article 5 is the mutual defense?
    Ms. Karlin. Yes, sir. And Lebanon is used to being 
regularly destabilized by various regional events, and no doubt 
one would expect that to happen.
    And then for a more creative option is really to look at 
Jordan. For example, we saw slews of Iraqi refugees go to 
Jordan and dramatically shift the Jordanian economy because 
they came with a lot of money. And so Jordanians couldn't 
afford housing. That led to some real difficulties for the 
Hashamites. So there is the violent challenges, those that we 
are most aware of and the tangible ones, and also the ones that 
are under the radar and indirect but actually have really 
problematic consequences. Thank you.
    Mr. Chabot. Thank you very much. And Dr. Lynch?
    Mr. Lynch. Thank you, sir. I agree again with what my 
colleagues have said. I would also point to the potential 
impact on Iraq, which as you know we spent a great deal of 
time, blood and treasure trying to stabilize, and is uniquely 
vulnerable to a spillover given the long border and the history 
of cross-border relations there.
    There is also the potential for reverse impact where if you 
go back to the 1950s, the last time you had a really unstable 
Syria, it becomes a battleground for regional conflict, proxy 
war, between in this case, the Gulf States and Iran basically 
becomes an arena in which they fight their battles. And that 
historically is something which was very destabilizing for 
Syria and across the region. And it becomes an extremely useful 
place for a group like al-Qaeda, which is mostly on the ropes, 
to reconstitute itself. To project itself as the defender of 
embattled Sunnis in Syria, this could possibly be its only 
opportunity to reestablish itself as a meaningful force in Arab 
politics. It has not done so to this point. I think that much 
of what we have seen is propaganda from Bashar's regime, but 
looking ahead is something which any serious strategic 
assessment has to take into effect.
    The final part of my answer to your question and to 
Representative Fortenberry's question is that much depends on 
how violent the transition process is. An extended, turbulent, 
violent transition process is more likely to create both a 
violent, unstable situation inside of Syria and across the 
region. And I think that is the great concern of the Turks in 
particular as they try and find a solution.
    Mr. Chabot. Thank you very much. And the gentleman from New 
York is recognized for a second round, if you want to go. We 
are into the second round so I can go. All right, go ahead, Mr. 
Connolly. We will go to the gentleman from the Commonwealth of 
Virginia. Not the State, but the Commonwealth.
    Mr. Connolly. That is right. Can anyone name the four 
Commonwealths in the United States? There are only four.
    Mr. Chabot. Kentucky.
    Mr. Connolly. Kentucky, Massachusetts, Pennsylvania and 
Virginia. Thank you, Mr. Chairman, and thank you, Mr. Ackerman, 
for your graciousness.
    Ms. Karlin, you talked about Turkey. There have been some 
alleged encroachments, shooting across the border, targeting 
some refugees perhaps even. How helpful has Turkey been during 
the Syrian crisis from the U.S. point of view, would you say?
    Ms. Karlin. Thank you, sir. The Turks as you may know had a 
very close relationship with the Assad regime for a number of 
years. In fact, this was how Prime Minister Erdogan really 
showed his comparative advantage, was that he believed and he 
articulated that he could bring the Syrians in for a close 
relationship with not just the U.S. but also with the Israelis. 
You might recall he had tried to broker an Israeli-Syrian peace 
deal. So that relationship was critical for the Turks, and that 
is why for the first few months of this conflict we saw the 
Turkish leadership, both the Foreign Minister and the Prime 
Minister, very enthusiastically trying to work with Assad to 
reform. And then they realized he wasn't going to, and they 
were scorned and they were perturbed.
    And since then I would say they have actually been quite 
helpful. They have welcomed in the refugees. They have 
supported them as much as possible. In fact, in many ways you 
could probably say the Turks have been more forward-leaning 
than a lot of other states, the United States, and also in 
Western Europe, because they are perturbed by what he has done. 
They are particularly perturbed that Assad lied to them. They 
thought he had this potential and he clearly didn't. They are 
now feeling the direct effects of the turmoil in Syria, and it 
is why, I think, they are the most worried about this dynamism 
in the contours of what really plays out. So I think they can 
be a close ally here, but I do believe they are going to look 
for what role the U.S. is willing to play in support of them.
    Mr. Connolly. Did you want to comment, Dr. Lynch?
    Mr. Lynch. I would just add that when you look at Turkey, 
the Kurdish issue, the roles----
    Mr. Connolly. I was just going to ask about the Kurds. Go 
ahead.
    Mr. Lynch. There you are. They are obsessed and have a deep 
problem with their own Kurds, and that leads them to be highly 
skeptical of any post-Assad situation in Syria in which the 
Kurds enjoy autonomy or any form of seemingly----
    Mr. Connolly. Although correct me if I am wrong. In Syria 
the Kurds have been relatively quiescent compared to say Iraq 
or even for that matter, Turkey.
    Mr. Lynch. For the Turks this is matter of great concern. 
The rationality or the history is not something which is 
necessarily guiding their decision making in that regard. But I 
would say that with the Kurds, and I would say even more 
broadly, again in response to Mr. Fortenberry's question, is 
that the Syrian opposition has not done a good job to this 
point of trying to reassure communities like the Kurds, the 
Christians, the Alawis. And if there is going to be any hope of 
a stable or nonviolent transition, they need to do a much 
better job of guaranteeing the security and the inclusion and 
participation of such minority communities.
    Mr. Connolly. And you bring up a very good point. The Assad 
regime has been a minority Alawite regime since its founding. 
The Alawites are in some quarters of the Islamic world 
considered worse than heretics, even nonbelievers. And I don't 
judge that but they have got a problem in mainstream Islam in 
terms of acceptance. One could look at what is going on in 
Syria and differentiate it from Libya or some other situations 
and say, well, for the Alawites this is do or die. If they lose 
power there are a lot of other problems besides just the fall 
of a regime, from their point of view.
    How much of a dynamic do you think that represents and how 
if at all, you talked about reach out and reassure the 
Alawites. Well, that sounds good, but I mean given the dynamic 
and given the current power structure that has been in place 
for quite some time, that is a lot easier said than done. Any 
of you can comment.
    Mr. Tabler. The minority nature of the regime galvanizes it 
against the kind of splits like we saw in Egypt and Tunisia. A 
split meaning, for the military, acts as a and ousts the ruling 
family in the name of the nation. Because the idea is that if 
the Assad family is thrown out that along with it go the 
prospects of the Alawites. I think that that is a real barrier. 
It makes this regime much more rigid.
    And the reason why the Obama administration has tried to 
work with Russia in this regard is not because of any kind of 
love for Russia, but rather it is based on an assumption, an 
uncertain one, that the Russians have assets inside of the 
Syrian military which will be able to be called upon later to 
convince the generals in that country, despite the fact they 
are Alawites, to expel the Assad family. I think there have 
been a number of conversations in this regard. But thus far it 
seems that the Russians are not willing to go along with it. 
Either it is based on their own calculations in the region or, 
and there are others that speculate, that it is based on their 
own conversations with the Alawite generals themselves that 
they realize that the regime can hold on for some time. And 
that makes this a particularly difficult problem to solve 
diplomatically involving Russia.
    Mr. Chabot. Okay, the gentleman's time has expired. Did you 
want to make a comment, Dr. Lynch?
    Mr. Lynch. Yes, very briefly. I do not believe that the 
sectarian dimension is the most important here in the sense of 
Sunni-Shia conflict or of the Alawites being heterodox. I think 
for mainstream Sunnis this is not a major issue. It is a major 
issue for Salafi jihadists of the al-Qaeda variety who are as 
you say deeply hostile to any form of Shiaism and including 
Alawis. But I think that the real risk is that this can 
increasingly become something which defines relations as the 
conflict progresses, as we saw in Iraq where you did not have a 
great deal of sectarian tension early on, but as the killing 
proceeded the battle lines and the identity lines became harder 
and harder. And even intermarriage and living in close quarters 
wasn't enough to protect people from that sectarian 
differentiation.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Nebraska, Mr. Fortenberry, is recognized for 5 minutes in 
the second round.
    Mr. Fortenberry. What are your thoughts as a panel on 
leveraging military assets by a coalition of nations to create 
space for humanitarian relief and space for the development of 
a new and just and legitimate form of governance for Syria?
    Mr. Tabler. Working inside of such a coalition for the 
creation of where there would be safe havens, buffer zones, 
humanitarian corridors, there are a variety of concepts, is 
something which there are contingency plans for this together 
with Turkey which have been developed by multiple sides. It is 
certainly doable. It presents a number of challenges 
militarily. That would allow a space where refugees could run 
as the game of Whac-A-Mole continues.
    But also, and the Syrian opposition has argued this, that 
this would create a space also politically inside the country 
where people would be able to go and organize and essentially 
have a Benghazi. It is unclear if immediately that would 
happen. It certainly would have a political effect inside the 
country. It certainly would be a major loss for President Assad 
to lose control over areas of his country. It would depend on 
though how it was carved out, if simply Turkey invaded to 
prevent refugees coming across.
    Where this problem intersects with the Kurdish problem is 
that every time there is a game of Whac-A-Mole people die, 
people go across the border into that group. And this is what 
the Turks are worried about now. Turkey is worried that the 
PYD, the Syrian version of the PKK, which they consider a 
terrorist organization, that members in Syria now are acting as 
police in the Kurdish communities. They could then melt into 
these refugees going across the border, and that is a national 
security threat to Turkey. It is one of the reasons why Article 
5 could be invoked. And so that is one of the reasons why 
Turkey would intervene.
    But there is also a possibility that areas like in Eastern 
Syria where the tribes are dominant could also break away. And 
that would function also politically. In Eastern Syria 
particularly you have serious production of oil and natural 
gas. So that would very quickly constrain the regime's ability 
to refine gasoline and diesel fuel as well as the production of 
natural gas which fires most of their power plants.
    Ms. Karlin. Let me just quickly add, sir, the creation of 
such areas would no doubt be a turning point, and I think 
Andrew nicely delineated what some of those might look like. 
There are of course challenges inherent in what those areas do, 
to be sure, but I think it is important that we are cognizant 
no matter what terminology we use. Those areas generally will 
look pretty similar whether they are safe havens, support 
havens, no-fly zones, you name it. They will all at least 
within the Assad regime's eyes be seen as the same. And that is 
important to be cognizant of. Whether or not we should actually 
establish them or support others doing them is a separate 
issue. But I think from the Assad regime's perspective this is 
all the same. Thank you.
    Mr. Lynch. So without running afoul of the ranking member's 
warnings about history, let me say that history is fairly clear 
that safe zones don't work. That the safe zones don't work. 
That either they require an enormous amount of diplomatic and 
military effort to sustain, or else they become in a sense 
unfunded mandates in which you offer guarantees of protection 
which you are not able to deliver, then you end up with your 
Srebrenicas.
    And so I think that it could be a turning point, but likely 
a turning point to deeper involvement. In order to establish a 
safe zone, for the United States with the way its military 
works, you would need to first establish a no-fly zone. That 
requires heavy bombing often in urban areas.
    Mr. Fortenberry. Let me be clear. I didn't say the United 
States.
    Mr. Lynch. Well, whoever does it. I mean I think no 
military is going to be willing to act in these areas without 
having the military ability to do so safely. And so basically 
this is something which sounds easy, but actually it is quite 
difficult when you look at what it actually entails. And then 
once you have done it you then have to maintain it. If you look 
at the example of in 1991 we declare Operation Provide Comfort 
and we spent the next 12 years protecting the Kurdish north, 
and that did not lead to a cascade of Saddam falling. We also 
declared a no-fly zone in the south to protect the Shia and 
that didn't work at all. And in fact, so you can go back and 
you look at those examples.
    I would say that whatever happens, it has to be done with 
the mandate of the United Nations and with international 
legitimacy. NATO, I think, cannot do this on its own. It 
doesn't matter if the Arab League supports it. Those are useful 
steps toward getting a Security Council resolution, but acting 
without the Security Council would make this something 
destructive of international laws and norms rather than 
building respect for international law. And I think for this 
administration or for any administration, this would be an 
extremely dangerous step to take.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from New York is recognized for 5 minutes.
    Mr. Ackerman. I think there is a certain amount of 
international naivete spearheaded by American and Western 
notions of democracy, that somehow we will settle this all down 
by having some kind of big general election and everybody is 
going to peacefully abide by whatever the results are, which is 
something we can hardly do in this country anymore let alone 
expect it to happen in a place where you have such sectarian 
and other kinds of interest. This is going to require, I think, 
taking a close look at what Russian expectations are, how to 
get the Russians on board so that they can resolve the issues 
that are very important and critical to them, and other 
countries as well. I will put that out there for anybody who 
wants to comment on it.
    But in specific, looking at the major players who can have 
an influence or an effect on the resolution of this problem, 
which countries are the most critical of the Obama 
administration or American interests, if I could defang the 
question as I started to propose it, and apply the Goldilocks 
litmus test of the porridge being too hot or too cold, or who 
thinks we are getting it just right? Do we have critics that 
are not on board because of what we are doing, and who are 
vocal of what they think we should or should not be doing?
    Mr. Lynch. Let me start that. I think that Saudi Arabia and 
Qatar have been very vocal in wanting us to take a firmer line. 
It reminds me of an old line that we once heard from Secretary 
Gates that they want to fight Syria with the last American.
    Mr. Ackerman. I wrote that down before you said it.
    Mr. Lynch. Yes, it is right there for you.
    Mr. Ackerman. So they are not sending any of their 
citizens.
    Mr. Lynch. Exactly.
    Mr. Ackerman. They are holding our coat and wishing us the 
best in the fight.
    Mr. Lynch. Exactly. I think that Russia, I think, Andrew 
has already spoken of quite effectively. I would only point out 
two things here. The first is that a lot of Annan strategy, 
Kofi Annan strategy, is built around trying to hold the 
Russians here, which is to say that this is a plan to which 
they have agreed. It is their ideas, and in a sense they then 
take on a certain responsibility to deliver.
    The second point I would make is that everybody tends to 
equate Russia and China but, in fact, their interests in this 
are quite different. China has no interest to speak of in 
Syria. It has a great deal of interest in the energy of the 
Gulf, and they are much more likely to be responsive to Saudi 
Arabia and Qatar in terms of pressure on them to shift their 
position. And so I would not speak of Russia and China as a 
unified bloc. They have different interests and they might 
behave differently. You have already seen signs of that in New 
York at the Security Council.
    Mr. Ackerman. What is your view of their attitude toward 
what we are doing?
    Mr. Lynch. I think for China, simply standing up to the 
United States at the moment is something which is useful for 
them politically given their grievances and things happening in 
Asia, but they have no intrinsic interest in Syria in the way 
that Russia does. And as a straightforward realpolitik, which 
is how I think the Chinese approach the world, it is much more 
important for them to keep the energy producers of the Gulf 
happy than it is for them to keep Syria or Russia happy.
    Mr. Fortenberry [presiding]. The gentleman's time has 
expired. So let us----
    Mr. Ackerman. I want to appeal for the judges. I think the 
clock was running from the last time, right?
    Mr. Fortenberry. It is confusing to me too.
    Mr. Ackerman. Did I go 8\1/2\ minutes?
    Mr. Fortenberry. It didn't seem that long, but it is always 
interesting to listen to you and time flies by. But don't know 
what the time was.
    Mr. Ackerman. I take that as the ultimate compliment.
    Mr. Connolly. Mr. Chairman, if I may. The clock kind of 
went the opposite direction.
    Mr. Fortenberry. Is that what happened.
    Mr. Connolly. And I believe the gentleman had----
    Mr. Fortenberry. Well, I didn't want to lose my legitimacy 
of authority in the chair here, so I apologize if I cut you off 
prematurely.
    Mr. Ackerman. No, I will abide by the decision of the 
chair.
    Mr. Fortenberry. Well, why don't we do this? The chairman 
is back and I will return the gavel to him.
    Mr. Connolly. I would ask you now to consent that the 
gentleman from New York be granted an additional minute.
    Mr. Ackerman. I would rephrase that and say my remaining 
minute.
    Mr. Connolly. Your remaining minute.
    Mr. Ackerman. I would just like to hear the response of the 
panel to try to get their, what I was trying to elicit, Mr. 
Chairman. It was not the fault of the gentleman who was in the 
chair, but the clock went haywire and reversed itself.
    Mr. Chabot. Are you using your minute right now?
    Mr. Ackerman. Only if you think so. I was trying to elicit 
from the distinguished panel what they thought of the 
assessment of other countries viewing whatever our policy is, 
as whether we are being too harsh or not harsh enough.
    Mr. Chabot. Okay, very good.
    Ms. Karlin. Sir, I would just add, I think Marc did a nice 
job of delineating those in the Middle East who are frustrated 
by our policy. I would be sure to add to that the Turks who I 
think have looked for very strong signals from the United 
States and have not received them. And on the Russia point, it 
is one worth considering in that the Russians have a lot to 
lose if the Assad regime goes, and very little to gain at this 
stage. They lose money. They lose a lot in arms sales. They 
lose access to their only port out of what had been the Soviet 
Union's territory. And for them to just do a little to impede 
change in Syria delivers a lot.
    They perturb the United States no doubt. They really by 
themselves accede at the table. When we talk about the Annan 
plan, so much of the discussion is, well, what are the Russians 
going to do about it? That is really where the focus is. So for 
the Russians, and of course if we look at what has happened in 
the region in the last 1\1/2\ years and the massive losses that 
they found in Libya given the change in administrations there, 
they are not enthusiastic about seeing a new Syria.
    On the China piece, I would just add to Marc's comments. 
The Chinese are notoriously uncomfortable when other states 
look at domestic politics, when they look at what is happening 
internally and how a state treats its population. For decades, 
the United States focused on Syria's foreign policy, what it 
was doing outside of its borders. And now really for the first 
time in a long time we are looking inside, and that is not 
something that the Chinese are inherently comfortable with. 
Thank you.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from the Commonwealth of Virginia is recognized for 5 minutes.
    Mr. Connolly. I thank the chair. And something that you 
said, Dr. Lynch, intrigued me. You said safe zones don't work. 
Surely that is an arguable point. There are a lot of people who 
believe the safe zone, if you can call it that in Iraq, for at 
least Kurds, did work, which is why that part of the country 
even to this day is prospering and growing and attracting 
investment and so forth. We actually kind of cordoned it off 
and helped protect it from Saddam Hussein at the time. I may 
take your point on the south, but wouldn't you agree that at 
least an arguable case could be made that it worked in the 
north?
    Mr. Lynch. Yes, it could. But the cost was about 20,000 
deployed troops, and it consumed an enormous amount of 
America's diplomatic attention to maintain authorization for 
that at the Security Council over the years. And midway 
through, in 1996, one of the Kurdish political parties invited 
Saddam Hussein's troops in to come and help finish off his 
political rival, and our no-fly zone was unable to prevent 
that. And so it was a guarded success at very high cost. But my 
point would be that what it did not do was what many people 
claim a safe area in Syria would do, which is to create a space 
where an alternative Iraqi leadership could emerge and thrive. 
Efforts to do that by the Iraqi National Congress failed rather 
spectacularly and it did not create a rallying point, which 
then led to a domino effect throughout the--so in other words, 
yes, it was a limited success in protecting the Kurds in a 
geographically concentrated space with almost complete ethnic 
homogeneity----
    Mr. Connolly. Yes. And I thought that was maybe the broader 
point you were making which is, Syria is not Iraq. I mean it is 
much more Balkanized, much more difficult to find a safe zone 
to say, well, that is going to be the safe zone, and we have 
three distinct, although there was lots of intermingling, but 
three distinct areas in Iraq that we could have, we pointed to.
    Mr. Tabler, did you want to comment on that?
    Mr. Tabler. I think that the idea of safe zones, yes, they 
are problematic. Yes, they are sort of a half measure so to 
speak between a overwhelming direct military intervention to 
sort of rip out the disease itself. And I would expect that 
these solutions, a safe zone or some of these other solutions 
are not perfect ones, but they are ones that are probably going 
to be considered, and I know are very seriously being 
considered by Turkey, as ways to try and manage the conflict as 
it goes forward.
    So then the question becomes, should the United States 
contribute to an effort now to deal with this problem and what 
it should be, or do we just wait and let this go on for 10 
years which some estimates in this town indicate. And just see 
where it goes and allow other people to, and including our 
allies, to try and affect its outcome. I think this would be 
easier to solve if I could really clearly see what the solution 
politically would be, and I just can't see it. I don't know 
anyone that really knows the country or knows----
    Mr. Connolly. That is my final question for all of you. 
Revolutions always start off better than they usually end. And 
yet looking at today's Egypt and Libya I would say the jury is 
out. What have we produced, collectively, not just the--and so 
as we look at Syria there are reports just this week that 
perhaps there has been some infiltration by extremist elements, 
terrorist elements, trying to exploit the situation.
    What ought to be, what could be a likely result given the 
experience we have just had with the Arab Spring and given what 
we know about Syria and its differences with other Arab 
countries?
    Mr. Tabler. The Assad regime is already destabilized and it 
will continue to deteriorate one way or the other. And into 
that very volatile vacuum can step other parties, for sure, and 
it can suck in a lot of other countries in the region and it 
can draw in a lot of other countries including the United 
States as well. The ultimate outcome, the settlement of the 
Syrian revolution is unclear.
    But what I can tell you is this. Whether America does 
something or not this is going to continue. This is not going 
to settle down any time soon. I don't know anyone I have met in 
the region who thought so, and we really need to be able to 
look at this as a storm and how are we going to deal with it. 
This is a bit different than a tornado. A tornado, you just 
have to let it blow through. In this particular case there are 
some things we can do, the question is now, what?
    Ms. Karlin. Sir, I would just add to that. It is hard to 
know when a revolution really ends. When we look at Egypt, for 
example, there are large swaths of the population that still 
think the country is in revolution. And yet there are those, 
particularly amongst the more conservative elements, that see 
the revolution as over. They have succeeded. They are in power, 
and moving on. And so I think that is a dilemma that we will 
see in Syria also. It is one we saw in Iran during that 
revolution also, if you will excuse me for citing history 
again, sir.
    So the results, what we know is this will be messy and we 
know that the violence will continue. It will be difficult. It 
will probably embroil various members of the region. And 
ideally the U.S. will be able to help shape how it plays out to 
a degree. But it is not stopping. I think we are all probably 
in quite a violent agreement about that. Thank you.
    Mr. Lynch. And even though we are over time, I would simply 
say that I agree with Andrew that this is likely to continue 
for quite some time. And again, if you see what the ceasefire 
did in the 2 weeks since it has come into effect, each Friday 
you have seen a qualitative jump in the number of peaceful 
demonstrations. And the fundamental question is whether that is 
enough to develop into the sort of tide of peaceful protest 
which could pose genuine problems for the regime. I think that 
Andrew's sense is that if that begins to happen the guns will 
come back out in much more force, which is precisely the point 
at which we need a united international community ready to put 
serious pressure on Assad to stop that from happening. That is 
why I want the observer mission to move in much more quickly, 
why it is so important to keep international consensus to the 
U.N. and why we need to push that forward.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Chabot. I thank the gentleman. The gentleman's time has 
expired. I want to thank the members of the panel for their 
excellent testimony.
    Mr. Ackerman. Mr. Chairman?
    Mr. Chabot. Yes.
    Mr. Ackerman. If I might before you conclude. Just for the 
record, I didn't mean to disparage all of history.
    Mr. Chabot. It is too late now.
    Mr. Ackerman. But just to try to reclaim my honor.
    Mr. Chabot. It is okay, you are retiring anyway.
    Mr. Ackerman. I just wanted to caution us that we are not 
always informed by events in third century Babylonia as to what 
to do in 21st century Afghanistan.
    Mr. Chabot. Excellent. Okay, thank you very much. And we 
want to thank the very fine presentation by the panel this 
afternoon. I think it was excellent testimony. And without 
objection, members will have 5 legislative days to submit 
questions or supplement their statements. And if there is no 
further business to come before the committee, we are 
adjourned. Thank you very much.
    [Whereupon, at 2:59 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
